Nos. 19-251, 19-255
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

THOMAS MORE LAW CENTER,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

AFFIDAVIT
On this 1st day of March, 2021, I, Anthony G. Lantagne, herby certify that
this BRIEF OF AMICUS CURIAE THE LEGACY FOUNDATION IN SUPPORT OF
PETITIONERS was emailed and hard copies mailed this same date to the counsel
of record listed below:
John J. Bursch
Alliance Defending Freedom
440 First Street NW, Suite 600
Washington, DC 20001
jbursch@adflegal.org

Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
Aimee .Feinberg@doj .ca.gov

Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
derekshaffer@quinnemanuel.com
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this~ day of March, 2021.

Lanta
ega rinting, Inc.
801 E. Main Street, Suite 100
Richmond, Virginia 23219
(804) 644-04 77

